  IMMIGRATION AND NATURALIZATION
SERVICE EXPENDITURES CHARGED TO THE
ORGANIZED CRIME DRUG ENFORCEMENT
        TASK FORCES PROGRAM
   FOR FISCAL YEARS 1997 - 2002
           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division

              Audit Report 04-03
               November 2003
   IMMIGRATION AND NATURALIZATION SERVICE
    EXPENDITURES CHARGED TO THE ORGANIZED
      CRIME DRUG ENFORCEMENT TASK FORCES
      PROGRAM FOR FISCAL YEARS 1997 - 2002

                            EXECUTIVE SUMMARY

       The Executive Office (EO) for the Organized Crime Drug Enforcement
Task Forces (OCDETF) was created in 1982 to take advantage of multi-
agency cooperation and coordination to identify, investigate, and prosecute
criminal enterprises engaged in high-level drug trafficking and related
enterprises. In December 1986, the Attorney General designated the INS1
as an OCDETF Program participant. The INS and the other federal agencies
participating in the OCDETF Program submit annual operating plans that
outline how OCDETF funding will be used. Upon acceptance of these plans,
the EO issues reimbursable agreements to each of the participating
agencies.

       In April of 2000, the General Accounting Office (GAO) initiated an audit
into the INS’s participation in antigang task forces in the Los Angeles area,
including a review of whether OCDETF funds were inappropriately used to
support gang-related investigations. As a result of their audit, GAO
concluded that seven Los Angeles OCDETF dedicated agents had been
reassigned to non-OCDETF cases and that the INS costs related to these
agents were erroneously billed to the EO. GAO also tested a sample of the
other direct costs billed to the EO and found that 67 percent of the amount
tested was used for law enforcement purposes not directly related to
OCDETF investigations. GAO also reported that interviews of other INS
OCDETF regional coordinators outside of the Los Angeles area indicated that
INS OCDETF dedicated agents in their regions were sometimes used for non-
OCDETF purposes and that nonpayroll OCDETF funds should be, but were
not always, used only for OCDETF cases. Consequently, the Department’s
Assistant Attorney General for Administration pledged to work with the EO

      1
          In March 2003, the INS was abolished and its functions, personnel, and equipment
were transferred to the Department of Homeland Security in accordance with the Homeland
Security Act of 2002, Public Law 107-296. The former INS was separated into three
bureaus - the Bureau of Immigration and Custom Enforcement, the Bureau of Customs and
Border Protection, and the Bureau of Citizenship and Immigration Services.

                                          -i -
and the INS to recover funds billed for non-OCDETF investigations, and to
improve the internal controls over the billings by the INS.

      We were engaged by the Office of the Inspector General for the
Department of Justice to perform an audit of the expenditures billed by the
INS to the EO for the fiscal years 1997 through 2002. The objective of the
audit was to determine whether costs submitted by the INS and reimbursed
by the OCDETF Program were in accordance with criteria established by the
EO.

       Consistent with the earlier GAO audit, our audit disclosed that for fiscal
years 1999 through 2002, the INS erroneously billed the EO for the salary
and related benefit costs of INS OCDETF dedicated agents who reported time
on monthly investigation time reports (G-22.12) to non-OCDETF related
investigations. Based on our testing, which indicated 10.5 percent of INS’s
dedicated OCDETF agents’ time was spent on non-OCDETF investigations;
we project the total amount of non-OCDETF salary and related benefit costs
that were charged to the OCDETF Program to be $3,082,782. Also, an
additional $1,743,3082 of salary and related benefit costs were considered
unsupported because the requested monthly investigation time reports were
not provided to us by the INS. However, neither of these amounts includes
salary and related benefit costs for fiscal years 1997 and 1998 because INS
officials informed us that retention policies in place within the agency
required that monthly investigation time reports only be maintained for a
period of three years. Accordingly, we were unable to test any salary and
related benefit costs for fiscal years 1997 and 1998 due to the timing of this
audit.

      We also tested the allowability of the other direct costs the INS billed
the EO. Although we did not identify any instances of non-OCDETF other
direct costs being billed to the EO, 55 percent or $1,847,6612 of the other
direct costs were deemed to be unsupported because (a) we were unable to
determine if they were actually for OCDETF-related purposes and/or (b) we
were unable to determine if the goods or services had actually been
received. Our inability to make this determination was due to a lack of
adequate supporting documentation (i.e., either no supporting
documentation was provided or the documentation that was provided could

       2
         As explained in Appendix I, Scope and Methodology, only the non-OCDETF costs
were projected to the entire population. The unsupported costs represent only the costs of
the sample items selected for testing.

                                           - ii -
not be conclusively associated with the OCDETF Program). Furthermore, we
were unable to complete our testing of the fiscal year 2002 other direct costs
because the INS informed us that errors in calculating the amount of
reimbursable costs were identified and were being corrected at the time this
report was drafted.

       The following table provides a summary of total questioned costs by
fiscal year:

Summary of Questioned Costs
 Fiscal   Non-OCDETF Costs (a)            Unsupported Costs (b)           Total Questioned   Total Invoiced
 Year       Salary & Benefits    Salary & Benefits   Other Direct Costs         Costs          to OCDETF
 1997              (c)                  (c)            $    41,417         $    41,417       $ 10,030,000
 1998              (c)                  (c)            $    69,736         $    69,736       $10,350,000
 1999        $ 781,918            $ 625,952            $     6,806         $ 1,414,676       $ 10,719,000
 2000        $ 1,082,291          $ 254,228            $ 1,510,889         $ 2,847,408       $ 14,980,362
 2001        $ 645,522            $ 506,792            $ 218,813           $ 1,371,127       $ 15,092,400
 2002        $ 573,051            $ 356,336                  (c)           $ 929,387         $ 13,063,000
 Total       $ 3,082,782          $ 1,743,308          $ 1,847,661         $ 6,673,751       $74,234,762
(a) Non-OCDETF costs are based upon the projection of the error rate identified during the testing of
    sample items.
(b) Unsupported costs represent only the costs of the sample items selected for testing.
(c) Testing was not performed for these years as discussed in Appendix I, Scope and Methodology.


      Our audit was performed in accordance with the performance audit
standards specified in the General Accounting Office’s, Government Auditing
Standards, 1994 Revision (Yellow Book) and Standards for Consulting
Services issued by the American Institute of Certified Public Accountants.




                                                   - iii -
                              TABLE OF CONTENTS
                                                                                              Page


BACKGROUND .................................................................................... 1

AUDIT RESULTS.................................................................................. 5

  QUESTIONED COSTS ............................................................................. 5

  IMPROVEMENTS NEEDED IN INTERNAL CONTROLS OVER INS’S OCDETF BILLINGS .. 10

COMPLIANCE WITH LAWS AND REGULATIONS ...................................... 16

APPENDIX I – SCOPE AND METHODOLOGY ........................................... 17

APPENDIX II – SCHEDULES OF INVESTIGATION TIME REPORTED BY INS
 AGENTS ......................................................................................... 22

APPENDIX III – SCHEDULES OF QUESTIONED FULL-TIME REGULAR PAY ... 26

APPENDIX IV – SCHEDULES OF WEIGHTED AVERAGE NON-OCDETF COST
 RATE ............................................................................................. 30

APPENDIX V – SCHEDULES OF NON-OCDETF SALARY & BENEFIT COSTS .. 31

APPENDIX VI – SCHEDULE OF UNSUPPORTED OTHER DIRECT COSTS ...... 34

APPENDIX VII – SCHEDULE OF DOLLAR-RELATED FINDINGS................... 36

APPENDIX VIII - THE EXECUTIVE OFFICE FOR THE ORGANIZED CRIME
 DRUG ENFORCEMENT TASK FORCES’ RESPONSE TO THE DRAFT AUDIT
 REPORT ......................................................................................... 37

APPENDIX IX – OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
 ANALYSIS AND SUMMARY OF ACTIONS NEEDED TO CLOSE THE
 REPORT ......................................................................................... 48
                                   BACKGROUND

       The Executive Office (EO) for the Organized Crime Drug Enforcement
Task Forces (OCDETF) was created in 1982 to take advantage of multi-
agency cooperation and coordination to identify, investigate, and prosecute
criminal enterprises engaged in high-level drug trafficking and related
enterprises. Federal agencies participating in the OCDETF Program submit
an annual operating plan that outlines how OCDETF funding will be used.
Upon acceptance of this plan, the EO issues reimbursable agreements to the
participating agencies that document: (a) the maximum level of
reimbursement, (b) references to the law that provides the appropriated
funds to the program, and (c) any additional requirements that agencies
must adhere to in accepting OCDETF funding.

       In November of 1997, the EO developed Program Guidelines that
established requirements, fundamental goals, and objectives for the OCDETF
Program and enabled the utilization of OCDETF resources to be measured
and assessed.3 A key element of the Program Guidelines was the
requirement that all funds appropriated for the OCDETF Program be spent in
their entirety on OCDETF investigations and prosecutions. Agency
reimbursement of the OCDETF Program costs cannot offset revenue of
participating agencies’ base level funding. On a quarterly basis, participating
agencies must submit an invoice to the EO that includes documentation
supporting accrued expenditures during the billing period and lists the costs
by Federal object classification.

       The Attorney General designated the INS as an OCDETF Program
participant in December 1986. As a result of this designation, the INS
established OCDETF Program Offices in its Washington, D.C. headquarters
and nine OCDETF regional locations throughout the continental United
States. Since OCDETF investigations require agents experienced in
investigating complex drug trafficking cases or cases of a similar nature, INS
management assigned approximately 100 INS agents to solely work on the
OCDETF investigations. In recognition of the additional experience
requirement, the INS established these OCDETF positions at a GS-13 level,
which was one pay grade higher than other INS investigators. However, the
INS was the only Department of Justice agency participating in the OCDETF
Program that specifically chose to designate agents to work solely on
OCDETF investigations.
      3
          The Program Guidelines were subsequently revised in July of 2002.
                                           -1-
      For fiscal years 1997 through 2001, the INS tracked OCDETF Program
obligations and expenditures through its core financial management system,
the Financial Accounting and Control System (FACS). In fiscal year 2002,
the INS began tracking obligations and expenditures in its new core financial
management system, the Federal Financial Management System (FFMS).
The INS established an OCDETF program code to track obligations and
expenditures related to OCDETF investigations. All obligations and
expenditures were recorded in the financial management system at the
transaction level, except for salary and related benefit costs. These costs
were maintained in a separate payroll system which produced summary level
entries that were then recorded in FACS/FFMS. Exhibit No. 1 displays the
amount of reimbursable agreements the EO has entered into with the INS
and the amount of obligations/expenditures invoiced by the INS to the EO
for the six years under review. The INS submitted invoices based on
obligations incurred, not on obligations expended; however, this practice
was changed in fiscal year 2002.

Exhibit 1 – Amounts Invoiced
  Fiscal Year        Reimbursable Agreement                Invoiced to the EO
     1997                 $ 10,030,000                        $ 10,030,000
     1998                 $ 10,350,000                        $ 10,350,000
     1999                 $ 10,719,000                        $ 10,719,000
     2000                 $ 15,300,000                        $ 14,980,362
     2001                 $ 15,773,000                        $ 15,092,400
     2002                 $ 15,987,000                        $ 13,063,000
     Total                $ 78,159,000                        $ 74,234,762

      In each quarter during fiscal years 1997 through 2001,4 the INS
provided the EO with quarterly billings that, in general, included the
following:

       •   A FACS report that listed, by sub-object classification, the
           obligations incurred during the quarter. These amounts were
           extracted from the financial management system’s database using
           the program code the INS established for tracking OCDETF incurred
           obligations.


       4
          For fiscal year 2002, INS was required to provide 25% of every dollar of OCDETF
costs incurred. See the last paragraph of this Background section for a discussion of the
INS’s fiscal year 2002 billing methodology and the supporting documentation provided to
the EO.
                                          -2-
       •   A memorandum from a senior official within INS’s Office of Financial
           Management certifying that the obligations had been legally and
           properly incurred for the OCDETF Program.

       •   Other miscellaneous system reports or schedules that supported
           the obligations incurred by the INS.

      Exhibit No. 2 displays the financial management system reports
provided to the EO as compared to the amounts invoiced to the EO for fiscal
years 1997 through 2002.

Exhibit 2 – Amounts Supported by INS’s Financial Management System
 Fiscal Year FACS/FFMS Reports         Invoiced by the INS  Unbilled/(Over Billed) Costs
    1997             $10,030,000          $ 10,030,000              $           -
    1998             $11,111,350          $ 10,350,000               $ 761,350
    1999             $10,943,627          $ 10,719,000               $ 224,627
    2000             $14,980,222          $ 14,980,362              $      (140)
    2001             $15,092,400          $ 15,092,400              $           -
    2002                 (d)              $ 13,063,000                    (d)
         (d) Finalized FFMS Reports had not been provided when this report was drafted.


      In general, the INS billed the EO for the amounts reported on the
FACS Reports. In the fourth quarter of each fiscal year, the INS would
determine the total obligations reported in FACS and deduct the amount of
reimbursement already received to date.5 This amount was compared to the
reimbursable agreement amount and the difference was billed to the EO.
However, according to the criteria established in the EO’s Program
Guidelines, any amounts exceeding reimbursable funding levels had to be
paid by the agency’s direct appropriations.

       In April of 2000, the General Accounting Office (GAO) began an audit
into the INS’s participation in antigang task forces in the Los Angeles area,
including a review of whether OCDETF funds were used to support gang-
related investigations. In October of 2000, the GAO reported that for much of
1997 and 1998, seven INS agents dedicated to OCDETF were re-assigned to
       5
          Since INS was basing its billings on obligations incurred rather than actual
expenditures this methodology accounted for any timely (i.e., within the same fiscal year)
upward or downward adjustments of previously billed obligations. However, as discussed
later in our report, delayed deobligations of prior year funds required the INS to refund the
EO the funds that were not fully expended. For example, in fiscal year 2002 the INS had to
refund the EO $626,917 for previously billed fiscal year 2000 and 2001 obligations that
were not fully expended.
                                            -3-
non-OCDETF investigations. GAO also found that 67 percent of the other
direct costs tested were used for law enforcement purposes not directly
related to OCDETF investigations. GAO reported that INS managers had
agreed that OCDETF dedicated agents had been reassigned to had been
reassigned to non-OCDETF cases and that the INS costs related to these
agents were billed to the EO. GAO also reported that interviews with other
INS OCDETF regional coordinators outside of the Los Angeles area indicated
that INS OCDETF dedicated agents in their regions were sometimes used for
non-OCDETF purposes and that nonpayroll OCDETF funds should be, but were
not always, used only for OCDETF cases.

        The Department’s Assistant Attorney General for Administration
concurred with GAO’s findings and pledged to work with the EO and the INS
to recover funds billed for non-OCDETF investigations, and to improve the
internal controls over the billings by the INS. Therefore, the objective of this
audit was to determine whether the expenditures reported by the INS and
reimbursed by the EO were in accordance with criteria established by the EO
(i.e., reimbursements were for expenditures incurred for OCDETF
investigations).

       Another consequence of GAO’s audit was reflected in INS’s fiscal year
2002 reimbursable agreement with the EO which contained the following
provision: Pursuant to the provisions of the H. Rept. 107-278, the
Conference Report on the FY 2002 Department of Justice Appropriations Act,
INS is directed to match at least 25 percent of each reimbursable dollar from
their direct appropriation on Organized Crime Drug Enforcement Task Force
cases before being reimbursed under this agreement. Accordingly, INS shall
submit quarterly billings directly to the Executive Office for OCDETF,
together with documentation on accrued expenditures, including overburn.6
Billings may not be processed electronically. As a result of this requirement,
the INS provided the EO with manually prepared schedules that calculated
the costs incurred, including the allocation of indirect or administrative costs
that was applied to the matching requirement but not billed to the EO.
Although the schedules provided the names, salary, and benefit costs of the
INS staff that were being billed to the EO, system-generated reports and
other detailed documentation were not provided to support INS’s
calculations.


      6
         Overburn represents any hours over and above the estimated FTE hours
associated with the reimbursable agreement.
                                         -4-
                                        AUDIT RESULTS

          Questioned Costs

          Our review of INS’s OCDETF costs for fiscal years 1997 through 2002
          found approximately $6.7 million of questioned costs. This amount
          consists of $3.1 million of non-OCDETF costs and $3.6 million of
          unsupported costs that had been billed and paid. These amounts do
          not include any questioned costs for salary and benefits for fiscal years
          1997 and 1998 because supporting documentation was not retained
          past three years. They also do not include any questioned costs for
          fiscal year 2002 other direct costs, which could not be tested because
          INS had not yet finalized their billings for this period. Additionally, the
          unsupported costs represent only the questioned costs from items
          actually tested and do not contain any projected error.

       Our audit determined that certain INS OCDETF dedicated agents
reported time to non-OCDETF related investigation codes on their monthly
investigation time reports (G-22.12). However, the full cost of their salary
and benefits were billed to the EO contrary to EO’s policy that only OCDETF-
related investigation costs are reimbursable. We were unable to determine if
all of the other direct costs we tested were for OCDETF related investigations
because documentation was not provided or it did not evidence that costs
were incurred for an OCDETF related purpose. Exhibit No. 3 provides a
summary of questioned costs by fiscal year.

Exhibit No. 3 – Summary of Questioned Costs
                 Non-OCDETF Costs (a)                Unsupported Costs (b)
 Fiscal            Salary & Benefits        Salary & Benefits   Other Direct Costs   Total Questioned
 Year                                                                                      Costs
                Tested          Projected
 1997               (c)            (c)              (c)          $    41,417         $      41,417
 1998               (c)            (c)              (c)          $    69,736         $      69,736
 1999       $     321,050   $     460,868    $     625,952       $     6,806         $   1,414,676
 2000       $     400,012   $     682,279    $     254,228       $ 1,510,889         $   2,847,408
 2001       $     198,004   $     447,518    $     506,792       $   218,813         $   1,371,127
 2002       $     241,382   $     331,669    $     356,336            (c)            $     929,387
 Total      $   1,160,448   $   1,922,334    $   1,743,308       $ 1,847,661         $   6,673,751
(a) Questioned costs consist of the error identified during the testing of sample items and the error
    from the untested part of the population that is based upon the projection of the error rate
    identified during the testing of sample items.
(b) Unsupported costs are a subset of questioned costs and represent only the costs of the sample
    items selected for testing. For fiscal year 2000, other direct costs of $1.5 million mainly
    represents INS’s requisition of motor vehicles where receiving reports (invoices) where not
    provided to support the receipt and final cost of the vehicles.
(c) Testing was not performed for these years as discussed in Appendix I, Scope and Methodology.
                                                  -5-
      Non-OCDETF costs represent salary and benefit costs that we
calculated to be related to non-OCDETF investigations, and include both
tested and projected costs. Non-OCDETF costs were determined by
obtaining monthly investigation time reports for a sample of INS OCDETF
agents and if applicable, calculating the agent’s full-time regular pay that
was related to non-OCDETF investigations. Applying this error rate to the
remaining salary and benefit costs (excluding certain exempted full-time
regular pay)7 of all INS OCDETF dedicated agents, allowed us to project the
non-OCDETF related salary and benefits costs that may have been
erroneously billed to the EO (see projected column). Unsupported costs
represent salary, benefit, and other direct costs (e.g., supplies,
transportation, etc.) where we were not able to conclude whether the costs
were OCDETF related because sufficient documentation was not provided.
In the following sections, we discuss in detail the results of our testing of
salary, benefits, and other direct costs for all fiscal years under review.

Salary and Benefits

      Non-OCDETF and unsupported costs were calculated based on our
testing of INS OCDETF dedicated agents’ monthly investigation time reports.
Payroll records were not used to determine whether non-OCDETF related
time was being reported because INS’s payroll records do not track time by
investigation. INS personnel are assigned in the payroll system to a
program code and, in general, all payroll time reported by INS personnel
would be reported in INS’s financial records in the program to which the
person was assigned. As a result, an INS OCDETF dedicated agent who
reported non-OCDETF time on a monthly investigation time report would still
have his full salary and benefit costs charged to the OCDETF Program, and
ultimately these costs would be billed to the EO.

       Our testing of salary and related benefit costs invoiced by the INS to
the EO differed depending on the fiscal year under review.8 For fiscal years
1997 and 1998, we did not test salary and related benefit costs because INS
officials informed us that retention policies in place within the agency
required that monthly investigation time reports only be maintained for

      7
        For a more detailed explanation of how the error rate and exempted pay were
determined, please see Appendix I, Scope and Methodology.
      8
        For a more detailed discussion of our approach, please see Appendix I, Scope and
Methodology.
                                          -6-
period of three years. Accordingly, we were unable to test any salary and
related benefit costs for fiscal years 1997 and 1998 due to the timing of this
audit. Exhibit No. 4 depicts the total non-OCDETF and unsupported salary
and benefit costs for the four years we reviewed.

Exhibit No. 4 – Total Non-OCDETF and Unsupported Salary & Benefit Costs
   FY         Certainty        Random         Projected     Unsupported         Total
  1999    $     218,005    $    103,045   $       460,868   $   625,952   $   1,407,870
  2000    $     230,148    $    169,864   $       682,279   $   254,228   $   1,336,519
  2001    $       89,180   $    108,824   $       447,518   $   506,792   $   1,152,314
  2002    $     107,169    $    134,213   $       331,669   $   356,336   $     929,387
  Total   $     644,502    $    515,946   $     1,922,334   $ 1,743,308   $   4,826,090

      The certainty column represents those INS OCDETF dedicated agents
that we had identified during the survey phase of our audit as reporting non-
OCDETF investigative time on monthly investigation time reports. We
selected these agents with certainty because they represented a known
population of dedicated agents who had reported non-OCDETF time, and we
planned to test whether this was a one-time event or whether these agents
consistently incurred non-OCDETF investigation time in each fiscal year. As
can be seen in the Appendices, our testing indicated that agents repeatedly
incurred non-OCDETF investigation time in each fiscal year.

      The random column represents INS OCDETF dedicated agents whom
we selected at random to determine whether they reported non-OCDETF
investigation time on their monthly investigation time reports. The selected
dedicated agents’ non-OCDETF investigation time divided by their total time
reported represented the error rate that was applied to all INS OCDETF
dedicated agents’ salary and related benefit costs to project the non-OCDETF
related costs that are summarized in the projected column above. Finally,
the unsupported column represents the full-time regular payroll costs for
those agents we selected for testing (either certainty or randomly) that INS
was not able to provide their monthly investigation time reports as support
for our testing.

       Our review of approximately 50 INS dedicated agents per year
identified that for the fiscal years 1999 through 2002, 10.5 percent of INS
OCDETF dedicated agents’ time was related to non-OCDETF investigations as
reported by agents on their monthly investigation time reports. In addition,
we were not able to determine whether non-OCDETF investigation time was
reported for 13.3 percent of the agents’ investigation hours because we were
not provided with all of their monthly investigation time reports. Exhibit No.
                                              -7-
5 lists the percentages of OCDETF, non-OCDETF, and unsupported time as
reported on monthly investigation time reports.

Exhibit No. 5 – Percentage of Investigation Hours by Fiscal Year
   FY          OCDETF                 Non-OCDETF                  Unsupported
  1999         67.48%                   12.01%                      20.51%
  2000         76.99%                   15.31%                       7.70%
  2001         77.14%                    7.14%                      15.72%
  2002         85.42%                    6.29%                       8.29%
  Avg          76.11%                   10.53%                      13.36%

       INS officials and regional OCDETF coordinators informed us that it was
not unusual for Special Agents In-Charge of INS District Offices to assign
INS OCDETF dedicated agents administrative tasks or emergency duty in
times of staff shortages or other special circumstances. INS officials stated
that these assignments tended to be short in duration and would, in general,
not adversely affect the case assignments of INS OCDETF dedicated agents;
however, we identified that 64 percent of the INS OCDETF dedicated agents
in our sample reported non-OCDETF investigation time. In some instances,
agents reported over 40 percent of their total investigation time to non-
OCDETF investigations. INS officials also stated that these results might be
misleading since some agents may have misreported on their time reports
immigration-related duties performed during an OCDETF investigation.
However, the INS officials did not provide any documentation to substantiate
this claim.

Other Direct Costs

       With respect to other direct costs, we selected obligations occurring
during the period October 1, 1996 to September30, 2001 that were either
material to the amount of other direct costs in each fiscal year quarter’s
billing by the INS, or where the obligation had been reported in a certain
object-classification. We selected non-representative samples because the
amount of other direct costs billed in any one year were immaterial to the
overall costs the INS invoiced the EO. The objective of our testing of other
direct costs was to determine whether the amounts invoiced to the EO were
actually expended by the INS,9 and whether they were related to an OCDETF
investigation. We did not test other direct costs incurred during fiscal year
2002 because the INS had not finalized their billings to the EO at the time

         9
         Prior to fiscal year 2002 the INS was basing its billings on obligations incurred
rather than on actual expenditures.
                                            -8-
this reported was drafted. Exhibit No. 6 depicts, by fiscal year, the total
unsupported other direct costs for the items we selected for testing.

Exhibit No. 6 – Results of Other Direct Cost Testing
  FY          Total Tested           OCDETF Related              Unsupported
 1997         $      41,417            $         -               $      41,417
 1998         $      69,936            $       200               $      69,736
 1999         $       6,806            $         -               $       6,806
 2000         $ 1,846,093              $   335,204               $   1,510,889
 2001         $ 1,397,650              $ 1,178,837               $     218,813
 Total        $ 3,361,902              $ 1,514,241               $   1,847,661

      For the majority of the other direct costs we selected for testing, we
were not provided with sufficient documentation to allow us to determine if
goods or services were actually received by the INS or whether the costs
were incurred for an OCEDTF related purpose.10 For example, most of the
documentation provided consisted of obligating documents or credit card
statements. There were no invoices, receiving reports, or other
documentation evidencing receipt of the goods or services acquired by the
INS. Also, the documentation was often annotated with the INS’s program
code for OCDETF costs, but documentation supporting the OCDETF related
purpose of the goods or services acquired was not provided.

         We recommend that the EO Director:

1. Determine the appropriate remedy for (a) $1,160,448 in questioned
   salary and benefit costs, (b) $1,922,334 in projected questioned salary
   and benefit costs, (c) $1,743,308 in unsupported salary and benefit costs,
   and (d) $1,847,661 in unsupported other direct costs.




         10
           An obligation is incurred when goods or services are ordered. The estimated cost
of the order is recorded in the entity’s financial management system as an undelivered
order-unpaid. This process is a control designed to prevent anti-deficiency violations. Upon
receipt and acceptance of the goods or service, the obligation is expended in the entity’s
financial management system and its status is updated to a delivered order-unpaid. At this
point the entity has incurred a cost or expense which is also recorded in the financial
management system. When the invoice for the goods or service is received and paid, the
obligation’s status is updated to a delivered order-paid. It is important to note that when an
obligation is incurred the amount recorded in the financial management system is an
estimated amount. This amount is adjusted upward or downward, if necessary, when the
obligation is expended or when the invoice is paid.
                                            -9-
      Improvements Needed in Internal Controls Over INS’s OCDETF
      Billings

      As part of our audit objectives, we reviewed both EO’s and INS’s11
      internal controls over the requirements for and preparation of the
      OCDETF bills. The EO could improve the language of its reimbursable
      agreements as well as its processes for review and approval of INS
      invoices. We also noted areas in which INS could amend its practices
      for preparing quarterly invoices and maintaining supporting
      documentation.

      Management of the INS and the EO is responsible for establishing and
maintaining accounting systems and internal control. In fulfilling this
responsibility, estimates and judgments are required to assess the expected
benefits and related costs of internal control policies and procedures. The
objectives of internal control are to provide management with reasonable,
but not absolute, assurance that: (1) transactions are properly recorded,
processed, and summarized; (2) assets are safeguarded against loss from
unauthorized acquisition, use, or disposition; and (3) transactions are
executed in accordance with applicable laws and regulations. Because of
inherent limitations in any internal control, errors or fraud may nevertheless
occur and not be detected. Also, projection of any evaluation of internal
control to future periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

      In planning and performing our audit of INS’s billings to the EO, we
obtained an understanding of the design of significant internal controls in
order to determine the nature and extent of our auditing procedures. Our
purpose was not to provide an opinion on INS’s or the EO’s internal controls;
accordingly, we do not express such an opinion.

      11
           In March 2003 as this audit was being completed, the INS was abolished and its
functions, personnel, and equipment were transferred to the Department of Homeland
Security in accordance with the Homeland Security Act of 2002, Public Law 107-296. The
former INS was separated into three bureaus - the Bureau of Immigration and Custom
Enforcement, the Bureau of Customs and Border Protection, and the Bureau of Citizenship
and Immigration Services. The Bureau of Immigration and Custom Enforcement assumed
responsibility for the former INS’s OCDETF Program. However, for consistency and to avoid
confusion, we continue to refer to the INS in our recommendations. It should be
understood that the Bureau of Immigration and Custom Enforcement will respond to all
recommendations requiring action by the former INS.
                                          - 10 -
      We noted the following matters that we consider to be reportable
conditions under Government Auditing Standards. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in
the design or operation of internal control that, in our judgment, could
adversely affect INS or EO’s ability to meet the internal control objectives
described above. Our consideration of internal control would not necessarily
disclose all matters that might be reportable conditions.

      We identified the following conditions that should be addressed by EO:

The EO’s reimbursable agreements with the INS do not include
specific requirements that clearly identify the nature and extent of
costs that are reimbursable under the agreement.

      The EO’s reimbursable agreements include information such as the not
to exceed amount; agreement term; requirements for submitting
documentation; and the estimated number of positions and work years
funded by the agreement. In addition, the operating plans submitted by the
INS include the amount budgeted by object classification. However, we
noted that the agreement does not address the following:

      •   Indirect costs – whether allocations of INS support staff,
          management oversight, or other administrative costs are allowable.

      •   Re-allocation of unobligated funds – whether unobligated funds in
          one object classification code can be transferred to another object
          classification code. For example, whether funds for permanent
          positions could be transferred to supply costs without prior
          notification/approval.

       We noted that prior to fiscal year 2002, the INS did not request
reimbursement for indirect costs, mainly because the salary and benefit
costs of INS OCDETF dedicated agents and other direct program costs
appears to have equaled or exceeded the amount of the reimbursable
agreement. In fiscal year 2002, the INS began allocating costs of
management and administrative support to the EO as a result of a 25
percent matching requirement imposed by Congress. However, the INS did
not actually bill the EO for these indirect costs, but did count them as part of
their 25 percent matching requirement.


                                     - 11 -
       We also noted that the INS did not re-submit budgets by object
classification code or receive approval from the EO when funds were used for
purposes other than originally intended. Failure to obtain and approve
transfers of funds to other object classifications could affect the accuracy of
EO’s financial reporting and program performance measurement.

      We recommend that the EO Director:

2. Include language in all future reimbursable agreements with the INS that
   addresses: (a) the specific indirect costs that are allowed to be invoiced
   and requires detailed schedules to support the calculation of all indirect
   costs; and (b) whether unobligated funds may be transferred among
   object classifications, and if allowed, require that EO approval be
   requested in writing before the INS obligates the funds.

Improvements are needed in the review and approval of quarterly
billings by the INS.

       The reimbursable agreements with the INS state …INS shall submit
quarterly billings directly to the EO, together with documentation on accrued
expenditures... This requirement establishes the rules of what an acceptable
billing should encompass in order for the INS to receive reimbursement for
expenditures incurred. We obtained the quarterly bills the INS provided the
EO and noted that supporting documentation typically included: a FACS
Report for the INS assigned OCDETF program code that listed the total
obligations incurred by the INS during that quarter by sub-object
classification, a signed statement from an INS finance officer that obligations
were incurred for OCDETF related purposes, and other documentation to
support the calculation of the amount billed for that quarter. However,
documentation was not provided for the following:

      •   For fiscal years 1999 through 2001, a list of the agents who
          incurred OCDETF related investigation time, the hours incurred, and
          the salary costs for each agent during the quarter.

      •   For fiscal years 1999 through 2001, the assignment of benefit costs
          to each agent who incurred OCDETF related investigation time.

      •   Invoices, receiving reports, or other documentation that support the
          receipt of goods and services, and the OCDETF related purpose for
          the cost incurred.
                                     - 12 -
      •   A comparison of costs incurred to budgeted amounts by object
          classification.

       In addition to the above, we noted that for fiscal years 1997 through
2001, the INS billed the EO for obligations incurred, not for actual
expenditures, and the EO approved the quarterly billings without exception.
The EO was not provided, or did not request, documentation to support
whether the obligations established by the INS were completely expended.
In fiscal year 2002, the INS refunded the EO $626,917 for obligations that
were not fully expended but were billed to the EO during fiscal years 2000
and 2001.

      We recommend the EO Director:

3. Establish requirements in the reimbursable agreement with the INS that
   requires the following documentation be submitted with each quarterly
   invoice: (a) a list of the agents who incurred OCDETF related
   investigation time, the hours incurred, and the salary costs during the
   quarter; (b) support for the assignment of salary related benefit costs for
   each agent, and (c) invoices, receiving reports, or other documentation
   that support the receipt of goods and services, and the OCDETF related
   purpose for the cost incurred.

4. Issue or revise policy that only permits the reimbursement of expended
   obligations. The EO should also consider requesting the INS provide an
   accounting of obligations billed to the EO during fiscal years 1997 to 1999
   to ensure that all billed obligations were fully expended.

5. Require the INS to submit with each quarterly invoice a comparison of
   costs incurred during the quarter, by object classification, to budgeted
   amounts.

The EO should establish appropriate criteria for documentation to
adequately support costs billed by OCDETF Program participants and
the record retention period for such documentation.

      For fiscal years 1997 and 1998, we did not test salary and related
benefit costs because INS officials informed us that retention policies in
place within the agency required that monthly investigation time reports
only be maintained for period of three years. These reports provide
                                     - 13 -
necessary information to support INS agent’s time incurred on OCDETF
related investigations.

       With respect to most of the other direct cost obligations we selected
for testing, INS regional finance offices provided us with documentation that
we could not: (a) reconcile to the obligation we selected, (b) determine
whether the obligation was fully expended, and/or (c) determine if the costs
were incurred for an OCDETF related purpose.

       We recommend the EO Director:

6. Require OCDETF participants retain all documentation that supports
   billings to the EO for a period of six years (e.g., monthly investigation
   time reports (G-22.12)).12

    We identified the following conditions that should be addressed by
OCDETF Program management of the INS:

Monthly investigation time reports should be used in INS’s payroll
cost determination to prevent billing of non-OCDETF investigation
time to the EO.

      The INS assigned an OCDETF related program code to the OCDETF
dedicated agents in its payroll system. Bi-weekly, OCDETF dedicated agents
submit a timesheet that lists the total hours incurred each day as well as
other miscellaneous information; however, specific investigation codes or
other OCDETF case information is not required for payroll processing.


       In addition to bi-weekly timesheets, OCDETF agents prepare monthly
investigation time reports. The investigation time reports require INS
agents to track daily, the amount of time spent on specific types of
investigation and administrative matters. There are numerous types of
investigations codes that are required to be tracked (e.g., smuggling, fraud,
OCDETF, etc.) each day. The monthly reports are accumulated by the
district offices and then forwarded to a regional office that summarize the

       12
           Although OCDETF funds expire at the end of the fiscal year for which they were
appropriated, unobligated balances are still available for upward adjustment of existing
obligations for the next five years. Any unobligated funds resulting from deobligation of
residual balances, disallowances, or lack of need in the participant’s OCDETF Program can
be transferred to the DOJ WCF prior to the funds canceling at the end of the sixth year.
Establishing a minimum record retention policy of six years would ensure that adequate
records are maintained to support effective management of DOJ resources.
                                           - 14 -
district office reports and submits them to the INS headquarters where they
are consolidated into an agency-wide investigation time report. This report
is used to provide information on INS-wide investigation efforts.


      However, the monthly investigation time reports are not linked to
INS’s payroll system and are not used during the billing process. As a
result, an OCDETF dedicated agent who was assigned to the OCDETF
program code in the payroll system, but who may have reported time to
another program code in monthly investigation time reports, would still have
his/her entire payroll costs recorded to the OCDETF program code in the
payroll system. Ultimately, these costs would be billed to the EO in their
entirety even though there was non-OCDETF time reported by the agent.


       We recommend the EO Director:


7. Require the INS to submit monthly investigation time reports in
   conjunction with payroll system reports to support the amount of salary
   and benefit costs related to OCDETF investigations. If an INS agent not
   specifically dedicated to the OCDETF Program incurred OCDETF
   investigation time, we would also recommend that INS be allowed to bill
   for such time with proper supporting documentation.13




       13
          During our audit, INS officials stated that occasionally non-OCDETF agents did
support OCDETF investigations; however, we were not provided with any documentation
supporting this claim.
                                           - 15 -
          COMPLIANCE WITH LAWS AND REGULATIONS
       Compliance with laws and regulations applicable to the EO and the INS
is the responsibility of management. As part of obtaining reasonable
assurance about whether the costs incurred by the INS and billed to the EO
were for OCDETF related purposes, we reviewed INS’s compliance with
certain provisions of the EO’s, The Organized Crime Drug Enforcement Task
Force Program Guidelines, November 1997 and the EO’s Reimbursable
Agreements with the INS. However, the objective of our audit was not to
provide an opinion on overall compliance with such provisions and,
accordingly, we do not express such an opinion.

      The results of our tests of INS's compliance with the provisions of laws
and regulations described in the preceding paragraph disclosed the following
instances of non-compliance that we believe are required to be reported
under Government Auditing Standards:

      •   During fiscal years 1999 through 2002, the INS billed the EO for
          salary and related benefit costs of INS OCDETF dedicated agents
          who reported non-OCDETF investigation time on their monthly
          investigation time reports.

      •   For fiscal years 1997 through 2001, the INS billed the EO for
          obligations incurred instead of obligations expended as required by
          the annual reimbursable agreements with the INS.

      •   For fiscal years 1997 through 2002, we were unable to determine if
          certain salary, benefit, and other direct costs selected for testing
          were for OCDETF related purposes because documentation was not
          supplied or did not provide sufficient evidence that obligations were
          incurred for an OCDETF related purpose.

       All significant facts pertaining to the matters referred to above and
recommended remedial actions are included in the Audit Results section of
this report.

                              **********

This report is intended solely for the information and use of the Office of the
Inspector General, the Assistant Attorney General for Administration, and
the Executive Office for the Organized Crime and Drug Enforcement Task
Forces. This report is not intended to be and should not be used by anyone
other than these specified parties.
                                      - 16 -
                                                             APPENDIX I

                  SCOPE AND METHODOLOGY
      Our audit was performed in accordance with the performance audit
standards specified in the General Accounting Office’s, Government Auditing
Standards, 1994 Revision (Yellow Book) and Standards for Consulting
Services issued by the American Institute of Certified Public Accountants.

       We were originally engaged to perform a performance audit of the
expenditures billed by the INS to the EO for the fiscal years 1997 through
2000. The objective of the audit was to determine whether the amounts
billed by the INS to the EO were in accordance with established criteria,
mainly that costs were incurred for matters relating to OCDETF
investigations. As a result of our preliminary findings, the EO requested, in
January 2003, that we expand our work to include fiscal years 2001 and
2002. The scope of the work we had been engaged to perform as compared
to the testing that we were able to complete with the documentation
provided by the INS is shown in Exhibit No. 7 below.

Exhibit No. 7 – Scope of Work
 Fiscal         Salaries               Benefits          Other Direct Costs
 Year     Engaged    Completed   Engaged   Completed    Engaged    Completed
 1997       Yes          No        Yes          No        Yes          Yes
 1998       Yes          No        Yes          No        Yes          Yes
 1999       Yes          Yes       Yes          Yes       Yes          Yes
 2000       Yes          Yes       Yes          Yes       Yes          Yes
 2001       Yes          Yes       Yes          Yes       Yes          Yes
 2002       Yes          Yes       Yes          Yes       Yes          No

       As the table depicts, we were unable to perform testing relating to
salaries and benefits in fiscal years 1997 and 1998. In accordance with
INS’s record retention policies, the monthly investigation time reports which
we used to determine whether investigation time was charged to non-
OCDETF related matters are not retained more than three years in
accordance with INS policy as stated by INS officials. We were also not able
to complete our testing on the fiscal year 2002 other direct costs because
the INS had informed us that errors in calculating the amount of
reimbursable costs were identified and the fiscal year 2002 billings were
being revised. The INS was not able to provide us with documentation to
support the revisions prior to the issuance of this draft report.

                                    - 17 -
      We segregated our work into two distinct phases, a survey phase
where we gained an understanding of INS’s participation in the OCDETF
Program and where we developed our audit plan, and a verification phase
where we executed the audit plan developed during the survey phase.

      During the survey phase, we confirmed with the OIG, INS management,
and the EO the objectives of the engagement, the availability of Department
personnel and documents needed to perform our testing, and the internal
controls designed to ensure costs incurred and billed by the INS to the EO
were related to OCDETF investigations. During this phase we:

     •    Reviewed the General Accounting Office’s Report No. GAO 01-78,
          Illegal Aliens – INS Participation in Antigang Task Forces in Los
          Angeles, and The Organized Crime Drug Enforcement Task Force
          Program Guidelines, dated November 1997,14 to assess the impact
          of these documents on our performance audit and to assist in the
          development of audit procedures.

     •    Interviewed management of the INS and EO at their respective
          Washington, D.C. offices, and we interviewed OCDETF regional
          coordinators to document the key controls and processes in place to
          identify, monitor, and accumulate costs associated with OCDETF
          investigations. We focused our inquiries on investigation time
          reporting, payroll timekeeping, coding of OCDETF costs,
          management review and approvals, and billing procedures.

     •    Performed a site-visit to a local INS district office to gain an
          understanding of the INS controls and processes at the district
          office level.

     •    Selected a non-representative sample of 78 OCDETF dedicated
          agents and selected one fiscal year quarter for each agent. We
          then requested each agent’s monthly investigation time report for
          that quarter and determined whether the agent reported any non-
          OCDETF related investigation time.

     •    Attempted to select a sample of other direct costs billed to the EO
          to determine whether the cost was incurred for an OCDETF related
          investigation; however, the INS was not able to provide system-
          generated reports or other documentation that listed all of the


     14
          The Program Guidelines were subsequently revised in July 2002.
                                          - 18 -
           obligations that supported the amounts billed to EO prior to
           completion of the survey phase.

      •    Held meetings with the OIG, INS officials, and the EO to discuss the
           results of our procedures performed during the survey phase and
           the effect on our planned approach during the verification phase of
           the audit.

      •    Provided a summary of the results of the procedures performed
           during the survey phase.

      A key step in the survey phase was the development of an audit
program that outlined the procedures we would perform in the verification
phase to test whether costs incurred by the INS were for OCDETF
investigations. The following procedures performed during the verification
phase were discussed with the OIG, INS management, and the EO before
any procedures were initiated:

      •    For each fiscal year, we selected the INS OCDETF dedicated agents
           that we identified during the survey phase as having reported non-
           OCDETF investigation time on monthly investigation time reports.
           Using a random number generator, we then selected an additional
           30 INS OCDETF dedicated agents for total test populations of 43 to
           51 agents out of a total population of 105 to 114 dedicated agents
           each fiscal year.

      •    For each agent selected, we obtained the agent’s monthly investigation
           time reports for the entire fiscal year and determined whether the
           agent had reported any non-OCDETF related investigation time. We
           then calculated the percentage of non-OCDETF investigation time and
           the percentage of unsupported time for each monthly investigative
           time report that was not provided (see Appendix II).

      •    We obtained payroll reports from INS’s Finance Center that listed
           the total full-time regular pay (sub-object classification code
           1130)15 for all INS personnel who had been assigned to INS
           program code 1233, OCDETF Investigations. For each fiscal year,


      15
          Sub-object classification code 1130, Full-Time Permanent Appointment – Regular
pay for the prescribed administrative workweek of 40 hours (or alternate work schedule pay
period of 80 hours), under permanent appointment. This factor was selected for testing
because it is present for all employees in every pay period and generally represents the
largest amount of the total costs incurred by the INS.
                                          - 19 -
            we compared the total amount reported as full-time regular pay in
            the payroll system reports to INS’s FACS/FFMS Report for sub-
            object classification code 1130 and noted differences (FACS/FFMS
            Reports were used by the INS to support the invoices sent to the
            EO). However, we concluded these differences were immaterial
            and deemed the amounts reported in the payroll system to be
            reasonable for purposes of our testing.16

       •    For each INS agent selected for testing, we obtained the amount of
            full-time regular pay (sub-object classification code 1130) and
            multiplied this amount by the percentage of non-OCDETF
            investigation time and unsupported time (see Appendix III). We
            separated the INS agents selected with certainty from the INS agents
            we selected at random and calculated the percentage of non-OCDETF
            and unsupported costs for each of these two categories.

       •    Using the percentage of non-OCDETF costs for INS agents selected
            at random as calculated in Appendix III, we applied this percentage
            to the total full-time regular pay for all INS OCDETF dedicated
            agents except for the following amounts: (1) the full-time regular
            pay for exempt personnel such as OCDETF regional coordinators,
            (2) the full-time regular pay for INS agents selected with certainty,
            and (3) amounts estimated to be unsupported because monthly
            investigation time reports were not provided. This calculation
            provided the projected non-OCDETF full-time regular payroll costs
            for the portion of the population of INS OCDETF dedicated agents
            subject to random selection (see Appendix IV).

       •    The projected non-OCDETF full-time regular payroll costs calculated in
            the prior step was added to the non-OCDETF costs of INS OCDETF
            dedicated agents we selected with certainty. This combined total was
            divided by the total full-time regular payroll costs for both populations
            to arrive at a weighted average non-OCDETF cost rate for the entire
            population of dedicated agents’ full-time regular pay (see Appendix IV).

       •    Except for fiscal year 2002, the weighted average non-OCDETF cost
            rate for the entire population of dedicated agents’ full-time regular pay
            was applied against all of the salary and benefit amounts billed by the
       16
          As previously discussed, all obligations and expenditures were recorded in
FACS/FFMS at the transaction level, except for salary and related benefit costs. The
transaction level salary and benefit cost detail was recorded in the payroll system, which
produced summary level entries that were then recorded in FACS/FFMS.
                                            - 20 -
         INS to the EO, less exempt and unsupported amounts, to arrive at a
         total projected non-OCDETF salary and benefit cost (see Appendix V).

      For fiscal year 2002, the INS provided the EO with detailed billings of
the salary and benefit costs for each agent; accordingly we modified our
procedures slightly from those performed for fiscal years 1999 through
2001. Exhibit No. 8 depicts our calculation of fiscal year 2002 non-OCDETF
related salary and benefit costs.

Exhibit No. 8 – Calculation of FY 2002 Non-OCDETF Salary & Benefit Costs
                           Procedure                             Amount
Total Salary & Benefit Costs Billed to the EO                            $ 12,362,636
 Less: Exempt INS Employees & Certainty Sample                           $ 3,372,409
 Less: Unsupported Costs in Sample                                       $    199,995
Net Salary & Benefit Costs Subject to Projection                         $ 8,790,232
 Multiplied by Error Rate from Our Sample                                      5.30%
Projected Salary & Benefit Costs relating to Non-OCDETF Investigations   $    465,882
 Add: Non-OCDETF Salary & Benefits Costs in Certainty Sample             $    107,169
Total Non-OCDETF Salary & Benefit Costs for FY 2002                      $   573,051

      As shown above, fiscal year 2002 non-OCDETF costs were calculated
on the total salary and related benefits for each agent, not on the full-time
regular pay. As a result, we did not have to apply a weighted average non-
OCDETF cost rate as was done in the fiscal years 1999 through 2001.

      With respect to other direct costs, we selected a non-representative
sample of amounts listed in certain sub-object classification codes obtained
from INS FACS Reports that supported the billings to the EO in various
quarters of fiscal years 1997 through 2001. The criteria used for
judgmentally selecting an amount for testing was: (1) the amount of the
sub-object classification code billed to the EO was material for that quarter,
and/or (2) the sub-object classification was generic in nature and could
represent costs for non-OCDETF related investigations (e.g., miscellaneous
supplies, auto transportation, etc.).

       We obtained system-generated schedules from the INS that identified
all the obligations that comprised the sub-object classification codes we
selected from INS’s FACS Reports. Next we selected 70 individual
obligations that were either large dollar amounts or potential duplicate
obligations to perform our other direct cost testing. We then requested
obligation documents and invoices or receiving reports from the INS that
evidenced the goods and services were actually received by the INS, and
that they were for an OCDETF related investigation or program purpose (see
Appendix VI).
                                     - 21 -
                                                                   APPENDIX II
  Investigation Time Reported by INS Agents
              FY 1999 Schedule of Investigation Time Reported by INS Agents
Sample   OCDETF
 Item    Related   Non-OCDETF     Unsupported     Total   Non-OCDETF % Unsupported %
   1        1,716           694               -    2,410           28.80%      0.00%
   2            -              -          1,211    1,211            0.00%    100.00%
   3        2,414            32               -    2,446            1.31%      0.00%
   4        1,974           533               -    2,507           21.26%      0.00%
   5          110              -          1,997    2,107            0.00%     94.78%
   6        1,134           390             173    1,697           22.98%     10.19%
   7        2,448            25               -    2,473            1.01%      0.00%
   8        1,443           695             173    2,311           30.07%      7.49%
   9        2,202           275             173    2,650           10.38%      6.53%
  10        1,833         1,064               -    2,897           36.73%      0.00%
  11            -              -          2,088    2,088            0.00%    100.00%
  12        2,398            41             173    2,612            1.57%      6.62%
  13          582              -             38      620            0.00%      6.13%
  14        1,884            10             519    2,413            0.41%     21.51%
  15        2,384            49               -    2,433            2.01%      0.00%
  16          368           733               -    1,101           66.58%      0.00%
  17        1,185         1,256               -    2,441           51.45%      0.00%
  18        2,502           111               -    2,613            4.25%      0.00%
  19        1,643           232               -    1,875           12.37%      0.00%
  20        2,060           521               -    2,581           20.19%      0.00%
  21        2,243           223               -    2,466            9.04%      0.00%
  22        2,693            28               -    2,721            1.03%      0.00%
  23        1,522           398             519    2,439           16.32%     21.28%
  24        1,625           236             480    2,341           10.08%     20.50%
  25        1,831            75             519    2,425            3.09%     21.40%
  26           52         1,340               -    1,392           96.26%      0.00%
  27          230              -          1,903    2,133            0.00%     89.22%
  28        1,787           554             160    2,501           22.15%      6.40%
  29            -              -          1,038    1,038            0.00%    100.00%
  30        1,489              -              -    1,489            0.00%      0.00%
  31        1,683              -            346    2,029            0.00%     17.05%
  32           40            50              56      146           34.25%     38.36%
  33        1,819           654               -    2,473           26.45%      0.00%
  34          631              -              -      631            0.00%      0.00%
  35          738           125               -      863           14.48%      0.00%
  36        2,240           110               -    2,350            4.68%      0.00%
  37        2,915              -              -    2,915            0.00%      0.00%
  38          602            12           1,557    2,171            0.55%     71.72%
  39          212              -          1,903    2,115            0.00%     89.98%
  40        2,500              -              -    2,500            0.00%      0.00%
  41            -              -          2,088    2,088            0.00%    100.00%
  42          890            68               -      958            7.10%      0.00%
  43        2,487              -              -    2,487            0.00%      0.00%
  44        1,799              -            519    2,318            0.00%     22.39%
  45            9           150               -      159           94.34%      0.00%
  46           19           589               -      608           96.88%      0.00%
  47        1,976              -              -    1,976            0.00%      0.00%
  48           11           195               -      206           94.66%      0.00%
  49            -              -          2,088    2,088            0.00%    100.00%
  50          371            82               -      453           18.10%      0.00%
  51          202              -              -      202            0.00%      0.00%
 Total    64,896         11,550         19,721    96,167          12.01%     20.51%


                                       - 22 -
              FY 2000 Schedule of Investigation Time Reported by INS Agents
Sample   OCDETF
 Item    Related   Non-OCDETF     Unsupported     Total   Non-OCDETF % Unsupported %
   1        1,943           497               -    2,440           20.37%      0.00%
   2        1,889           651               -    2,540           25.63%      0.00%
   3        2,387           102               -    2,489            4.10%      0.00%
   4        2,357            56               -    2,413            2.32%      0.00%
   5        1,531           558               -    2,089           26.71%      0.00%
   6        2,139            17             173    2,329            0.73%      7.43%
   7        1,641           788             173    2,602           30.28%      6.65%
   8        2,498            43               -    2,541            1.69%      0.00%
   9          254            69               -      323           21.36%      0.00%
  10        2,499            17               -    2,516            0.68%      0.00%
  11        2,619              -              -    2,619            0.00%      0.00%
  12        2,569              -              -    2,569            0.00%      0.00%
  13        1,274           522               -    1,796           29.06%      0.00%
  14        2,626            46               -    2,672            1.72%      0.00%
  15        1,962           832               -    2,794           29.78%      0.00%
  16          306            23               -      329            6.99%      0.00%
  17          679           237               -      916           25.87%      0.00%
  18        1,430              -              -    1,430            0.00%      0.00%
  19          348              -              -      348            0.00%      0.00%
  20        2,109            62             173    2,344            2.65%      7.38%
  21        2,478            40               -    2,518            1.59%      0.00%
  22        2,382              -              -    2,382            0.00%      0.00%
  23        1,056              -          1,211    2,267            0.00%     53.42%
  24        1,119              -            173    1,292            0.00%     13.39%
  25        1,800           400             173    2,373           16.86%      7.29%
  26        2,082           217               -    2,299            9.44%      0.00%
  27           96              -              -       96            0.00%      0.00%
  28          193              -            173      366            0.00%     47.27%
  29        2,423              -              -    2,423            0.00%      0.00%
  30        1,004         1,516               -    2,520           60.16%      0.00%
  31        2,309           432               -    2,741           15.76%      0.00%
  32        1,887           516               -    2,403           21.47%      0.00%
  33        1,895           747               -    2,642           28.27%      0.00%
  34        1,060           211               -    1,271           16.60%      0.00%
  35        2,105           485               -    2,590           18.73%      0.00%
  36        1,954           392               -    2,346           16.71%      0.00%
  37        2,373           227               -    2,600            8.73%      0.00%
  38          128           895               -    1,023           87.49%      0.00%
  39           24            94               -      118           79.66%      0.00%
  40        1,095              -              -    1,095            0.00%      0.00%
  41        2,083           204               -    2,287            8.92%      0.00%
  42           78           281               -      359           78.27%      0.00%
  43        2,586             8               -    2,594            0.31%      0.00%
  44          567              -              -      567            0.00%      0.00%
  45            -              -          2,088    2,088            0.00%    100.00%
  46        1,613            40             720    2,373            1.69%     30.34%
  47        2,573              -              -    2,573            0.00%      0.00%
  48           87         2,797               -    2,884           96.98%      0.00%
  49            -              -          2,127    2,127            0.00%    100.00%
  50        1,132           943             346    2,421           38.95%     14.29%
 Total    75,242         14,965          7,530    97,737          15.31%      7.70%




                                       - 23 -
              FY 2001 Schedule of Investigation Time Reported by INS Agents
Sample   OCDETF
 Item    Related   Non-OCDETF     Unsupported     Total   Non-OCDETF % Unsupported %
   1        1,712           833               -    2,545          32.73%       0.00%
   2        2,269           448               -    2,717          16.49%       0.00%
   3        2,403            48               -    2,451            1.96%      0.00%
   4        2,363            62               -    2,425            2.56%      0.00%
   5          328              -            692    1,020            0.00%     67.84%
   6        1,283         1,185               -    2,468          48.01%       0.00%
   7        2,475            99               -    2,574            3.85%      0.00%
   8          485              -          1,730    2,215            0.00%     78.10%
   9            -              -             80       80            0.00%    100.00%
  10            -              -          2,080    2,080            0.00%    100.00%
  11        2,064           397               -    2,461          16.13%       0.00%
  12        2,625           143               -    2,768            5.17%      0.00%
  13        2,097           406               -    2,503          16.22%       0.00%
  14        2,430              -              -    2,430            0.00%      0.00%
  15        2,440              -              -    2,440            0.00%      0.00%
  16        2,757            38               -    2,795            1.36%      0.00%
  17        2,368            84               -    2,452            3.43%      0.00%
  18          643              -              -      643            0.00%      0.00%
  19        2,250            49               -    2,299            2.13%      0.00%
  20        2,348              -              -    2,348            0.00%      0.00%
  21           64           529               -      593          89.21%       0.00%
  22        2,086           184               -    2,270            8.11%      0.00%
  23        2,077           458               -    2,535          18.07%       0.00%
  24        1,707           148             519    2,374            6.23%     21.86%
  25        2,437           118               -    2,555            4.62%      0.00%
  26        2,021              -              -    2,021            0.00%      0.00%
  27          885              -              -      885            0.00%      0.00%
  28        2,070            80             346    2,496            3.21%     13.86%
  29        2,162           111             173    2,446            4.54%      7.07%
  30        1,939           112               -    2,051            5.46%      0.00%
  31          990              -              -      990            0.00%      0.00%
  32        2,421            70               -    2,491            2.81%      0.00%
  33            -              -          2,040    2,040            0.00%    100.00%
  34            -              -          2,080    2,080            0.00%    100.00%
  35            -              -          2,041    2,041            0.00%    100.00%
  36        2,352            76               -    2,428            3.13%      0.00%
  37           38           163           1,211    1,412          11.54%      85.76%
  38        1,603           200               -    1,803          11.09%       0.00%
  39        2,020           133               -    2,153            6.18%      0.00%
  40        1,984           219               -    2,203            9.94%      0.00%
  41           68           111               -      179          62.01%       0.00%
  42        1,559              -              -    1,559            0.00%      0.00%
  43        2,423              -            173    2,596            0.00%      6.66%
  44        1,694            35               -    1,729            2.02%      0.00%
  45            -              -          1,488    1,488            0.00%    100.00%
  46        1,939           119               -    2,058            5.78%      0.00%
 Total    71,879          6,658         14,653    93,190           7.14%     15.72%




                                       - 24 -
              FY 2002 Schedule of Investigation Time Reported by INS Agents
Sample   OCDETF
 Item    Related   Non-OCDETF     Unsupported     Total   Non-OCDETF % Unsupported %
   1        2,342           292               -    2,634          11.09%       0.00%
   2        2,389            16               -    2,405            0.67%      0.00%
   3        1,658           180               -    1,838            9.79%      0.00%
   4          714           650               -    1,364          47.65%       0.00%
   5        2,701              -              -    2,701            0.00%      0.00%
   6        1,235              -              -    1,235            0.00%      0.00%
   7        1,233              -              -    1,233            0.00%      0.00%
   8        1,250              -              -    1,250            0.00%      0.00%
   9            -              -          2,088    2,088            0.00%    100.00%
  10        2,455              -              -    2,455            0.00%      0.00%
  11        1,990           253             174    2,417          10.47%       7.20%
  12        1,543           211               -    1,754          12.03%       0.00%
  13        1,775            53               -    1,828            2.90%      0.00%
  14        2,332            80               -    2,412            3.32%      0.00%
  15        2,588              -              -    2,588            0.00%      0.00%
  16        2,002           211             174    2,387            8.84%      7.29%
  17        1,900              -              -    1,900            0.00%      0.00%
  18        1,896              -              -    1,896            0.00%      0.00%
  19          205              -              -      205            0.00%      0.00%
  20            -              -              -         -           0.00%      0.00%
  21        1,483           437               -    1,920          22.76%       0.00%
  22        1,827            60               -    1,887            3.18%      0.00%
  23        2,186           168               -    2,354            7.14%      0.00%
  24        1,857            33               -    1,890            1.75%      0.00%
  25        1,520              -              -    1,520            0.00%      0.00%
  26        1,859            54               -    1,913            2.82%      0.00%
  27        2,304           113               -    2,417            4.68%      0.00%
  28        1,707           120               -    1,827            6.57%      0.00%
  29          985             6               -      991            0.61%      0.00%
  30            -              -          2,128    2,128            0.00%    100.00%
  31          392              -          1,218    1,610            0.00%     75.65%
  32        2,413           118               -    2,531            4.66%      0.00%
  33          663              -              -      663            0.00%      0.00%
  34        1,816            94               -    1,910            4.92%      0.00%
  35          191              -              -      191            0.00%      0.00%
  36          230           186               -      416          44.71%       0.00%
  37            -              -              -         -           0.00%      0.00%
  38        1,737           171               -    1,908            8.96%      0.00%
  39        1,533           354               -    1,887          18.76%       0.00%
  40          202           423               -      625          67.68%       0.00%
  41        1,613            43               -    1,656            2.60%      0.00%
  42            -              -              -         -           0.00%      0.00%
  43          845            63               -      908            6.94%      0.00%
 Total    59,571          4,389          5,782    69,742           6.29%      8.29%




                                       - 25 -
                                                              APPENDIX III
    Questioned Full-Time Regular Pay
          FY 1999 Schedule of Questioned Full-Time Regular Pay
 Sample Non-OCDETF Unsupported Full-Time        Non-OCDETF Unsupported
  Item        %          %        Regular Pay     Amount       Amount
    2         0.00%    100.00%        $36,135            -       $36,135
    1        28.80%       0.00%       $73,012      $21,027             -
   34         0.00%       0.00%       $17,420            -             -
    8        30.07%       7.49%       $68,428      $20,576        $5,125
   26        96.26%       0.00%       $35,258      $33,939             -
   24        10.08%     20.51%        $62,883       $6,339       $12,897
   15         2.01%       0.00%       $67,964       $1,369             -
   11         0.00%    100.00%        $70,706            -       $70,706
   23        16.32%     21.28%        $63,378      $10,342       $13,486
    3         1.31%       0.00%       $62,206         $814             -
   21         9.04%       0.00%       $74,339       $6,722             -
   25         3.09%     21.40%        $62,159       $1,922       $13,303
    4        21.24%       0.00%       $72,036      $15,300             -
   16        66.58%       0.00%       $26,621      $17,724             -
    5         0.00%     94.78%        $69,376            -       $65,753
   17        51.45%       0.00%       $74,368      $38,266             -
   22         1.03%       0.00%       $60,275         $620             -
   31         0.00%     17.05%        $75,174            -       $12,817
    6        22.99%     10.20%        $71,805      $16,507        $7,322
   28        22.15%       6.40%       $57,441      $12,723        $3,676
   20        20.19%       0.00%       $68,427      $13,815             -
Certainty   17.17%     19.00%     $1,269,411     $218,005      $241,220
   30         0.00%       0.00%       $48,452            -             -
   12         1.57%       6.62%       $66,061       $1,037        $4,375
   27         0.00%     89.22%        $75,306            -       $67,186
   36         4.66%       0.00%       $73,659       $3,434             -
   18         4.25%       0.00%       $69,508       $2,953             -
   42         7.10%       0.00%       $25,750       $1,828             -
    9        10.38%       6.53%       $65,131       $6,760        $4,253
   13         0.00%       6.13%       $22,401            -        $1,373
   49         0.00%    100.00%        $67,062            -       $67,062
   32        34.25%     38.36%         $4,053       $1,388        $1,555
   19        12.37%       0.00%       $63,781       $7,892             -
   46        96.88%       0.00%       $16,863      $16,336             -
   33        26.45%       0.00%       $77,917      $20,606             -
   14         0.41%     21.51%        $63,095         $259       $13,572
   47         0.00%       0.00%       $30,164            -             -
   29         0.00%    100.00%        $36,860            -       $36,860
   40         0.00%       0.00%       $69,065            -             -
   35        14.48%       0.00%       $26,106       $3,780             -
   44         0.00%     22.39%        $66,198            -       $14,822
   10        36.73%       0.00%       $71,778      $26,364             -
   37         0.00%       0.00%       $71,704            -             -
   48        94.89%       0.00%        $4,390       $4,166             -
   38         0.53%     71.75%        $62,220         $330       $44,644
    7         1.01%       0.00%       $70,034         $707             -
   45        94.34%       0.00%        $4,178       $3,942             -
   39         0.00%     89.98%        $68,885            -       $61,980
   41         0.00%    100.00%        $67,050            -       $67,050
   50        18.01%       0.00%        $7,012       $1,263             -
   43         0.00%       0.00%       $67,529            -             -
   51         0.00%       0.00%        $2,057            -             -
 Random      7.04%     26.27%     $1,464,269     $103,045      $384,732

                                 - 26 -
          FY 2000 Schedule of Questioned Full-Time Regular Pay
 Sample Non-OCDETF Unsupported Full-Time Non-OCDETF Unsupported
  Item        %           %       Regular Pay    Amount        Amount
    2        25.63%       0.00%       $62,065      $15,907             -
    1        20.37%       0.00%       $76,667      $15,616             -
   13        29.06%       0.00%       $53,816      $15,639             -
   48        96.98%       0.00%       $70,790      $68,655             -
   46         1.69%      30.34%       $66,407       $1,119       $20,149
   24         0.00%      13.39%       $41,543            -        $5,563
   16         6.99%       0.00%       $12,043         $842             -
   43         0.31%       0.00%       $65,998         $205             -
    4         2.32%       0.00%       $66,207       $1,537             -
   36        16.71%       0.00%       $72,820      $12,168             -
   47         0.00%       0.00%       $66,844            -             -
    5        26.71%       0.00%       $62,783      $16,769             -
   25        16.86%       7.29%       $63,960      $10,784        $4,663
    6         0.71%       7.43%       $72,759         $517        $5,406
   29         0.00%       0.00%       $77,069            -             -
   37         8.73%       0.00%       $64,881       $5,664             -
    7        30.28%       6.65%       $74,428      $22,537        $4,949
    9        21.36%       0.00%        $8,800       $1,880             -
   50        38.94%      14.29%       $68,145      $26,536        $9,741
   35        18.73%       0.00%       $73,533      $13,773             -
Certainty   18.84%       4.13% $1,221,558        $230,148       $50,471
   42        78.27%       0.00%        $9,750       $7,631             -
   44         0.00%       0.00%       $18,248            -             -
   19         0.00%       0.00%        $9,332            -             -
   30        60.16%       0.00%       $72,710      $43,741             -
   21         1.59%       0.00%       $71,722       $1,139             -
   49         0.00%    100.00%        $80,381            -       $80,381
   27         0.00%       0.00%        $1,456            -             -
   38        87.48%       0.00%       $19,789      $17,311             -
   10         0.68%       0.00%       $66,334         $448             -
   31        15.76%       0.00%       $72,710      $11,459             -
    3         4.10%       0.00%       $72,795       $2,983             -
   14         1.72%       0.00%       $69,933       $1,203             -
   32        21.47%       0.00%       $78,484      $16,851             -
   22         0.00%       0.00%       $82,255            -             -
   33        28.27%       0.00%       $68,670      $19,413             -
   11         0.00%       0.00%       $72,363            -             -
   23         0.00%      53.42%       $68,003            -       $36,326
   18         0.00%       0.00%       $37,561            -             -
   28         0.00%      47.27%       $13,060            -        $6,173
   17        25.87%       0.00%       $19,116       $4,945             -
   12         0.00%       0.00%       $74,380            -             -
   20         2.65%       7.38%       $74,704       $1,980        $5,513
   39        79.66%       0.00%          $174         $139             -
   34        16.60%       0.00%       $33,479       $5,558             -
   15        29.78%       0.00%       $75,215      $22,399             -
   26         9.44%       0.00%       $63,859       $6,028             -
    8         1.69%       0.00%       $73,393       $1,240             -
   40         0.00%       0.00%       $28,951            -             -
   41         8.92%       0.00%       $60,496       $5,396             -
   45         0.00%    100.00%        $75,364            -       $75,364
 Random     10.86%      13.02% $1,564,687        $169,864      $203,757




                                 - 27 -
          FY 2001 Schedule of Questioned Full-Time Regular Pay
Sample Non-OCDETF Unsupported Full-Time Non-OCDETF Unsupported
  Item         %          %       Regular Pay    Amount        Amount
     2        16.49%       0.00%      $67,874      $11,192            -
     3         1.96%       0.00%      $79,220       $1,553            -
     4         0.00%    100.00%       $75,812            -      $75,812
     5         5.46%       0.00%      $68,534       $3,742            -
     6         0.00%       0.00%      $17,790            -            -
     7         2.56%       0.00%      $69,497       $1,779            -
   17          0.00%       0.00%      $27,475            -            -
   20          6.23%     21.86%       $81,106       $5,053      $17,730
   23          3.43%       0.00%      $67,213       $2,305            -
   24          0.00%     67.84%       $35,550            -      $24,117
   25          0.00%       0.00%      $80,587            -            -
   27          4.62%       0.00%      $67,816       $3,133            -
   30         48.01%       0.00%      $81,231      $38,999            -
   31          3.85%       0.00%      $67,032       $2,581            -
   33         11.54%     85.76%       $41,992       $4,846      $36,012
   37         18.07%       0.00%      $77,460      $13,997            -
Certainty     8.86%     15.27% $1,006,189         $89,180     $153,671
   38         11.09%       0.00%      $53,169       $5,896            -
   11         16.13%       0.00%      $71,088      $11,466            -
   21         89.21%       0.00%      $18,855      $16,821            -
   13         16.22%       0.00%      $74,654      $12,109            -
   35          0.00%    100.00%       $80,303            -      $80,303
   18          0.00%       0.00%      $14,432            -            -
   39          6.19%       0.00%      $66,267       $4,102            -
   22          8.11%       0.00%      $67,680       $5,489            -
   40          9.94%       0.00%      $66,267       $6,587            -
   14          0.00%       0.00%      $72,453            -            -
   10          0.00%    100.00%       $69,052            -      $69,052
   15          0.00%       0.00%      $85,624            -            -
   41         62.01%       0.00%       $4,243       $2,631            -
     8         0.00%     78.10%       $68,536            -      $53,527
     1        32.73%       0.00%      $68,056      $22,275            -
   19          2.13%       0.00%      $83,233       $1,773            -
   16          1.36%       0.00%      $74,593       $1,014            -
   42          0.00%       0.00%      $47,621            -            -
   43          0.00%       6.66%      $69,805            -       $4,649
   44          2.00%       0.00%      $60,372       $1,207            -
   32          2.81%       0.00%      $71,088       $1,998            -
   36          3.13%       0.00%      $76,963       $2,409            -
   12          5.17%       0.00%      $77,862       $4,025            -
   45          0.00%    100.00%       $49,801            -      $49,801
   28          3.21%     13.86%       $79,220       $2,543      $10,980
   46          5.78%       0.00%      $56,840       $3,285            -
   29          4.54%       7.07%      $70,348       $3,194       $4,974
   34          0.00%    100.00%       $76,916            -      $76,916
   26          0.00%       0.00%      $61,154            -            -
     9         0.00%    100.00%        $2,919            -       $2,919
 Random       5.92%     19.20% $1,839,414        $108,824     $353,121




                                - 28 -
                      FY 2002 Schedule of Questioned Salary and Benefit Costs17
             Sample Non-OCDETF Unsupported       Salary and   Non-OCDETF Unsupported
              Item         %          %         Benefit Costs    Amount         Amount
                 1        11.09%       0.00%         $96,097       $10,653              -
                 2         0.67%       0.00%        $118,477          $788              -
                30         0.00%    100.00%         $147,271             -       $147,271
                28         6.57%       0.00%         $83,065        $5,456              -
                 3         9.79%       0.00%         $79,939        $7,829              -
                29         0.61%       0.00%        $106,018          $642              -
                22         3.15%       0.00%         $93,389        $2,945              -
                16         8.84%       7.29%        $124,431       $10,999         $9,070
                18         0.00%       0.00%         $90,386             -              -
                24         1.75%       0.00%         $77,206        $1,348              -
                 4        47.63%       0.00%         $97,139       $46,272              -
                 5         0.00%       0.00%        $123,553             -              -
                21        22.76%       0.00%         $88,913       $20,237              -
            Certainty     8.08%     11.79%       $1,325,884      $107,169      $156,341
                13         2.90%       0.00%         $87,377        $2,533              -
                20         0.00%       0.00%               $-            -              -
                32         4.66%       0.00%        $110,136        $5,135              -
                 6         0.00%       0.00%        $108,447             -              -
                12        12.03%       0.00%         $88,717       $10,672              -
                14         3.32%       0.00%        $128,530        $4,263              -
                17         0.00%       0.00%         $92,329             -              -
               38          8.96%       0.00%         $78,856        $7,067              -
                33         0.00%       0.00%         $83,264             -              -
                 7         0.00%       0.00%        $117,729             -              -
                42         0.00%       0.00%               $-            -              -
                25         0.00%       0.00%         $55,154             -              -
                15         0.00%       0.00%        $141,105             -              -
                10         0.00%       0.00%        $130,047             -              -
                 8         0.00%       0.00%        $119,323             -              -
                34         4.92%       0.00%         $99,097        $4,877              -
                43         6.94%       0.00%         $35,864        $2,488              -
                11        10.47%       7.20%        $120,900       $12,655         $8,704
                40        67.68%       0.00%         $47,194       $31,941              -
                23         7.14%       0.00%        $118,303        $8,443              -
                36        44.77%       0.00%         $29,939       $13,402              -
                41         2.60%       0.00%         $91,778        $2,383              -
                 9         0.00%    100.00%         $127,109             -       $127,109
                35         0.00%       0.00%               $-            -              -
                37         0.00%       0.00%               $-            -              -
                27         4.68%       0.00%        $133,409        $6,237              -
                31         0.00%     75.65%          $84,838             -        $64,182
                19         0.00%       0.00%         $97,346             -              -
                26         2.82%       0.00%        $104,762        $2,957              -
                39        18.76%       0.00%        $102,134       $19,160              -
             Random       5.30%       7.89%      $2,533,687     $134,213       $199,995

       17
           The schedule for fiscal year 2002 is slightly different than the three previous
schedules in Appendix III for fiscal years 1999 – 2001, and reflects the questioned salary
and benefit costs rather than just the questioned full-time regular pay. As explained in
Appendix I, the INS changed its billing methodology for fiscal year 2002 and provided a
detailed schedule for the salary and benefit costs for each agent being billed. This enabled
us to identify the exact salary and benefit costs the sample items being tested and required
us to modify our procedures. For further explanation, please see Appendix I, Scope and
Methodology.
                                               - 29 -
                                                                              APPENDIX IV
             Weighted Average Non-OCDETF Cost Rate
 FY 1999
No. Agents                 Total Full-Time   Non-OCDETF     Non-OCDETF    Unsupported   Unsupported
In Sample     Category      Regular Pay        Costs        Percentage       Costs       Percentage

     21      Certainty         $1,269,411        $218,005        17.17%      $241,220            19.00%
     30      Random            $1,464,269        $103,045         7.04%      $384,732            26.27%
     57      Untested          $2,983,328              NA            NA            NA                NA
     19      Exempt            $1,285,074              NA            NA            NA                NA
    127                        $7,002,082        $321,050                    $625,952
    -19      Exempt          $(1,285,074)
    -21      Certainty       $(1,269,411)
             Unsupported       $(384,732)
     87      Adjusted          $4,062,865        $286,026         7.04%
     21      Certainty         $1,269,411        $218,005        17.17%
                                                                        Weighted Average
    108                        $5,332,276        $504,031         9.45% Non-OCDETF Cost Rate



 FY 2000
No. Agents                 Total Full-Time   Non-OCDETF     Non-OCDETF    Unsupported   Unsupported
In Sample     Category      Regular Pay        Costs        Percentage       Costs       Percentage

     20      Certainty      $1,221,558         $230,148        18.84%       $50,471         4.13%
     30      Random         $1,564,687         $169,864        10.86%      $203,757        13.02%
     55      Untested       $2,821,112               NA            NA            NA            NA
     20      Exempt         $1,437,900               NA            NA            NA            NA
    125                     $7,045,257         $400,012                    $254,228
    -20      Exempt        $(1,437,900)
    -20      Certainty     $(1,221,558)
             Unsupported     $(203,757)
     85      Adjusted        $4,182,042        $454,170        10.86%
     20      Certainty       $1,221,558        $230,148        18.84%
                                                                          Weighted Average
    105                     $5,403,600         $684,318        12.66%     Non-OCDETF Cost Rate



 FY 2001
No. Agents                 Total Full-Time   Non-OCDETF     Non-OCDETF    Unsupported   Unsupported
In Sample     Category      Regular Pay         Costs       Percentage       Costs       Percentage

     16      Certainty      $1,006,189          $89,180         8.86%      $153,671        15.27%
     30      Random         $1,839,414         $108,824         5.92%      $353,121        19.20%
     68      Untested       $3,954,292               NA            NA            NA            NA
     18      Exempt         $1,390,989               NA            NA            NA            NA
    132                     $8,190,884         $198,004                    $506,792
    -18      Exempt        $(1,390,989)
    -16      Certainty     $(1,006,189)
             Unsupported     $(353,121)
     98      Adjusted        $5,440,585        $322,083         5.92%
     16      Certainty       $1,006,189         $89,180         8.86%
                                                                          Weighted Average
    114                     $6,446,774         $411,263         6.38%     Non-OCDETF Cost Rate




                                                  - 30 -
                                                                                     APPENDIX V
               Non-OCDETF Salary & Benefit Costs
                               FY 1999 Non-OCDETF Salary & Benefit Costs
                                               Total              Less 18.35%       Net Salary & Benefit
Sub-Object          Account
                                     Salary & Benefit Costs Estimated Exempt         Costs Subject to
 Class No.         Description
                                          Billed by INS      Salary & Benefit Costs      Projection
    1110   emp indebt for net pay                        -                       -                   -
    1115   interest on back pay                          -                       -                   -
    1117   availability pay                    $1,735,366               $(318,440)         $1,416,926
    1118   expert witness fees                           -                       -                   -
    1119   rewards                                   $220                    $(40)               $180
    1128   lump sum terminal other                 $8,643                 $(1,586)             $7,057
    1130   full-time perm                      $7,104,980             $(1,303,764)         $5,801,216
    1138   full-time indefinite                    $2,546                   $(467)             $2,079
    1140   prem pay annual basis                     $511                    $(94)               $417
    1142   OT -other                               $4,030                   $(740)             $3,290
    1143   night differential                     $21,380                 $(3,923)            $17,457
    1145   holiday pay                            $22,861                 $(4,195)            $18,666
    1146   Sunday pay                             $12,683                 $(2,327)            $10,356
    1160   lump sum terminal leave               $171,809                $(31,527)           $140,282
    1169   FLSA OT                                $82,062                $(15,058)            $67,004
    1170   GS special awards                             -                       -                   -
    1219   emp indebtness                            $399                    $(73)               $326
    1210   Temp Subsistence Allow                        -                       -                   -
    1220   FEHBA                                 $359,043                $(65,884)           $293,159
    1221   FEGLI                                  $16,862                 $(3,094)            $13,768
    1222   retirement                                    -                       -                   -
    1223   FICA                                   $90,975                $(16,694)            $74,281
    1224   retirement, haz duty                  $653,524               $(119,922)           $533,602
    1225   medicare, non fica emp                $109,478                $(20,089)            $89,389
    1226   medicare, fica emp                     $23,189                 $(4,255)            $18,934
    1227   thrift savings plan                    $15,781                 $(2,896)            $12,885
    1228   matching gov contribu                  $61,011                $(11,196)            $49,815
    1230   FERS                                   $14,106                 $(2,588)            $11,518
    1231   FERS law enforcement                  $337,919                $(62,008)           $275,911
    1242   COLA nonforeign                        $51,068                 $(9,371)            $41,697
    1252   R/E expense allowance                         -                       -                   -
    1253   Misc Moving Expense                           -                       -                   -
    1254   W/H Tax Allowance                             -                       -                   -
    1255   Relocation Inc Tax Allow                      -                       -                   -
    1278   suppl ret agen contribu                       -                       -                   -
                      Totals                  $10,900,446             $(2,000,231)         $8,900,215
           Less: FY 1999 Unsupported Costs from Certainty Sample                           $(241,220)
           Less: FY 1999 Unsupported Costs from Random Sample                              $(384,732)
                                     Adjusted Salary and Benefit Costs                     $8,274,263
                                     Weighted Average Non-OCDETF Cost Rate                      9.45%
           Total Non-OCDETF Salary and Benefit Costs for FY 1999 >>>>>                       $781,918




                                                  - 31 -
                              FY 2000 Non-OCDETF Salary & Benefit Costs
                                             Total            Less 20.41%        Net Salary & Benefit
Sub-Object          Account
                                    Salary & Benefit Costs Estimated Exempt       Costs Subject to
 Class No.         Description
                                        Billed by INS     Salary & Benefit Costs      Projection
    1110   emp indebt for net pay                       -                    -                    -
    1115   interest on back pay                         -                    -                    -
    1117   availability pay                   $1,699,971            $(346,964)          $1,353,007
    1118   expert witness fees                          -                    -                    -
    1119   rewards                                 $7,631             $(1,558)               $6,073
    1128   lump sum terminal other                      -                    -                    -
    1130   full-time perm                     $7,046,750          $(1,438,242)          $5,608,508
    1138   full-time indefinite                         -                    -                    -
    1140   prem pay annual basis                 $15,578              $(3,180)             $12,398
    1142   OT -other                             $32,996              $(6,734)             $26,262
    1143   night differential                    $30,864              $(6,299)             $24,565
    1145   holiday pay                           $27,078              $(5,527)             $21,551
    1146   Sunday pay                            $16,747              $(3,418)             $13,329
    1160   lump sum terminal leave              $231,121             $(47,172)            $183,949
    1169   FLSA OT                                 $5,516             $(1,126)               $4,390
    1170   GS special awards                       $7,000             $(1,429)               $5,571
    1219   emp indebtness                          $1,536               $(313)               $1,223
    1210   Temp Subsistence Allow                       -                    -                    -
    1220   FEHBA                                $381,336             $(77,831)            $303,505
    1221   FEGLI                                 $15,475              $(3,159)             $12,316
    1222   retirement                            $(5,557)               $1,134             $(4,423)
    1223   FICA                                 $129,368             $(26,404)            $102,964
    1224   retirement, haz duty                 $580,945            $(118,571)            $462,374
    1225   medicare, non fica emp                $96,532             $(19,702)             $76,830
    1226   medicare, fica emp                    $35,661              $(7,278)             $28,383
    1227   thrift savings plan                   $23,892              $(4,876)             $19,016
    1228   matching gov contribu                 $92,976             $(18,976)             $74,000
    1230   FERS                                  $13,890              $(2,835)             $11,055
    1231   FERS law enforcement                 $526,456            $(107,450)            $419,006
    1242   COLA nonforeign                       $46,838              $(9,560)             $37,278
    1252   R/E expense allowance                        -                    -                    -
    1253   Misc Moving Expense                          -                    -                    -
    1254   W/H Tax Allowance                            -                    -                    -
    1255   Relocation Inc Tax Allow                     -                    -                    -
    1278   suppl ret agen contribu                      -                    -                    -
                      Totals                $11,060,600           $(2,257,470)          $8,803,130
           Less: FY 2000 Unsupported Costs from Certainty Sample                        $(50,471)
           Less: FY 2000 Unsupported Costs from Random Sample                           $(203,757
                                 Adjusted Salary and Benefit Costs                     $8,548,902
                                 Weighted Average Non-OCDETF Cost Rate                    12.66%
           Total Non-OCDETF Salary and Benefit Costs for FY 2000 >>>>>                 $1,082,291




                                                 - 32 -
                              FY 2001 Non-OCDETF Salary & Benefit Costs
                                             Total            Less 16.98%        Net Salary & Benefit
Sub-Object          Account
                                    Salary & Benefit Costs Estimated Exempt       Costs Subject to
 Class No.         Description
                                        Billed by INS     Salary & Benefit Costs      Projection
    1110   emp indebt for net pay                    $76                 $(13)                 $63
    1115   interest on back pay                        -                     -                    -
    1117   availability pay                   $1,955,315            $(332,055)          $1,623,260
    1118   expert witness fees                       $17                  $(3)                 $14
    1119   rewards                               $20,967              $(3,561)             $17,407
    1128   lump sum terminal other                     -                     -                    -
    1130   full-time perm                     $8,108,628          $(1,377,021)          $6,731,607
    1138   full-time indefinite                        -                     -                    -
    1140   prem pay annual basis                 $18,723              $(3,180)             $15,543
    1142   OT -other                              $3,104                $(527)              $2,577
    1143   night differential                    $23,895              $(4,058)             $19,837
    1145   holiday pay                           $17,977              $(3,053)             $14,924
    1146   Sunday pay                            $15,428              $(2,620)             $12,808
    1147   hazardous pay                             $68                 $(12)                   56
    1160   lump sum terminal leave               $36,310              $(6,166)             $30,144
    1169   FLSA OT                                     -                     -                    -
    1170   GS special awards                           -                     -                    -
    1219   emp indebtness                           $629                $(107)                $522
    1210   Temp Subsistence Allow                $57,228              $(9,719)             $47,509
    1220   FEHBA                                $466,573             $(79,234)            $387,339
    1221   FEGLI                                 $17,705              $(3,007)             $14,698
    1222   retirement                                  -                     -                    -
    1223   FICA                                 $162,790             $(27,645)            $135,145
    1224   retirement, haz duty                 $626,424            $(106,380)            $520,044
    1225   medicare, non fica emp                $99,995             $(16,981)             $83,014
    1226   medicare, fica emp                    $44,870              $(7,620)             $37,250
    1227   thrift savings plan                   $31,303              $(5,316)             $25,987
    1228   matching gov contribu                $122,256             $(20,762)            $101,494
    1230   FERS                                  $12,569              $(2,134)             $10,435
    1231   FERS law enforcement                 $701,993            $(119,214)            $582,779
    1242   COLA nonforeign                       $53,622              $(9,106)             $44,516
    1252   R/E expense allowance                 $36,250              $(6,156)             $30,094
    1253   Misc Moving Expense                    $7,450              $(1,265)              $6,185
    1254   W/H Tax Allowance                     $71,430             $(12,130)             $59,300
    1255   Relocation Inc Tax Allow              $84,481             $(14,347)             $70,134
    1278   suppl ret agen contribu                     -                                          -
                      Totals                $12,798,076           $(2,173,392)         $10,624,684
           Less: FY 2001 Unsupported Costs from Certainty Sample                       $(153,671)
           Less: FY 2001 Unsupported Costs from Random Sample                          $(353,121)
                                 Adjusted Salary and Benefit Costs                    $10,117,892
                                 Weighted Average Non-OCDETF Cost Rate                     6.38%
           Total Non-OCDETF Salary and Benefit Costs for FY 2001 >>>>>                   $645,522




                                                 - 33 -
                                                                        APPENDIX VI
Schedule of Unsupported Other Direct Costs
             Sample
   FY       Item No. SOC       ODN         Obligation    OCDETF     Unsupported
   1997          14   2201   ACD700459         $11,245                     $11,245
   1997          16   2303   BUR970016          $1,652                      $1,652
   1997          17   2303   BUR970016          $5,494                      $5,494
   1997          18   2303   BUR970016          $4,917                      $4,917
   1997          19   2304   ACD708319          $2,520                      $2,520
   1997          20   2304   BUR970016          $3,421                      $3,421
   1997          21   2304   BUR970016          $6,048                      $6,048
   1997          23   2501   HOU701104          $6,120                      $6,120
 Subtotal                                     $41,417             -       $41,417
   1998           1   2103   COR803102          $1,064                      $1,064
   1998           2   2103   COR803102          $1,064                      $1,064
   1998          22   2313   MIA980002         $19,800                     $19,800
   1998          26   2534   ACD800322         $47,187                     $47,187
   1998          27   2602   ELP807013            $200        $200               $-
   1998          28   2603   HOU907615            $621                        $621
 Subtotal                                     $69,936        $200         $69,736
   1999           3 2105     COR905647            $100                        $100
   1999          15 2302     MIA0990016         $6,706                      $6,706
 Subtotal                                      $6,806             -        $6,806
   2000           4   2126    INV000011         $4,660                      $4,660
   2000           5   2126   OPS000333         $15,198                     $15,198
   2000           6   2126   OPS000506          $5,642                      $5,642
   2000           7   2126   EOR001458          $3,872                      $3,872
   2000           8   2126   OPS001034          $7,035                      $7,035
   2000           9   2126   OPS001034          $6,206                      $6,206
   2000          10   2127   PCS000399        $256,404    $238,344         $18,060
   2000          11   2127   PCS000746        $151,477                    $151,477
   2000          12   2127   PCS000853        $255,122     $96,860        $158,262
   2000          13   2127   PCS000872        $191,581                    $191,581
   2000          24   2508    ALT006912         $5,000                      $5,000
   2000          25   2508   BOS006912          $5,400                      $5,400
   2000          29   2612   COW7A1045          $8,880                      $8,880
   2000          30   2612   LOS006911          $6,694                      $6,694
   2000          31   2612   NOL006912         $13,500                     $13,500
   2000          32   2612    PHI006912        $13,000                     $13,000
   2000          33   2612   KAN006912          $4,930                      $4,930
   2000          34   2612   NYC006909         $20,000                     $20,000
   2000          35   2612   NYC006909         $18,438                     $18,438
   2000          36   2612   MIA006912         $37,800                     $37,800
   2000          37   2612   COWOJ2492         $25,318                     $25,318
   2000          38   2619   HHW0P0078         $10,583                     $10,583
   2000          39   2619    NYC0J0928        $11,880                     $11,880
   2000          40   3101   DEN0P0548          $2,499                      $2,499
   2000          41   3101   COW0D2499       $131,403                     $131,403
   2000          42   3102    SFR0J0281        $15,000                     $15,000
   2000          43   3102   SNA0D0319          $5,842                      $5,842
   2000          44   3103   DET006908         $22,500                     $22,500
   2000          45   3103   COW7A1045         $38,976                     $38,976
   2000          46   3103   ACD0J0492         $15,375                     $15,375
   2000          47   3103   COR006912         $15,878                     $15,878
   2000          48   3103   HOU0J0258          $5,000                      $5,000
   2000          49   3170   COW000007       $418,000                     $418,000
   2000          50   3170   COW000007         $97,000                     $97,000
 Subtotal                                  $1,846,093    $335,204      $1,510,889
                                                                 (cont on next page)
                                          - 34 -
            Sample
  FY       Item No. SOC       ODN        Obligation   OCDETF      Unsupported

  2001          51   2201   PCS010613        $17,391    $17,391              -
  2001          52   2201   PCS010731         $6,532     $6,386           $146
  2001          53   2534   PCS010034       $134,820   $146,055      $(11,235)
  2001          54   2534   PCS010613        $46,064    $38,199         $7,865
  2001          55   2612   BUF016911        $10,000          -        $10,000
  2001          56   2612   PHI016911        $44,866          -        $44,866
  2001          57   2612   DEN016912        $10,000          -        $10,000
  2001          58   2612   HOU016912        $22,000          -        $22,000
  2001          59   2612   ACB1P0764        $24,969          -        $24,969
  2001          60   2619   ATL1P0317         $7,595          -         $7,595
  2001          61   2619   HOU1J0133        $19,806    $19,806              -
  2001          62   3102   BUF016912         $6,500          -         $6,500
  2001          63   3102   SNA1P0187        $24,195          -        $24,195
  2001          64   3102   OMA1P0240        $13,081          -        $13,081
  2001          65   3102   ELP1C0099         $7,085          -         $7,085
  2001          66   3102   DEN016912         $5,100          -         $5,100
  2001          67   3102   NOL016912         $7,870          -         $7,870
  2001          68   3103   HLG016912        $28,346          -        $28,346
  2001          69   3103   MAR016912        $10,430          -        $10,430
  2001          70   3170   COW100036      $951,000    $951,000              -
Subtotal                                 $1,397,650 $1,178,837       $218,813

                              TOTAL      $3,361,902 $1,514,241     $1,847,661




                                        - 35 -
                                                                         APPENDIX VII
               Schedule of Dollar-Related Findings

QUESTIONED COSTS:                                         AMOUNT                       PAGE
Salary & Benefits
Non-OCDETF                                              $3,082,782                          7
Unsupported                                             $1,743,308                          7
Other Direct Costs
Non-OCDETF                                                           -
Unsupported                                             $1,847,661                          9
TOTAL QUESTIONED COSTS                                 $6,673,751




Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual
requirements, are not supported by adequate documentation at the time of the audit, or are
unnecessary or unreasonable. Offset, waiver, recovery of funds, or the provision of supporting
documentation may remedy questioned costs.

                                             - 36 -
                                 APPENDIX VIII
THE EXECUTIVE OFFICE FOR THE ORGANIZED CRIME
 DRUG ENFORCEMENT TASK FORCES’ RESPONSE TO
           THE DRAFT AUDIT REPORT




                     - 37 -
- 38 -
- 39 -
- 40 -
- 41 -
- 42 -
- 43 -
- 44 -
- 45 -
- 46 -
- 47 -
                                                               APPENDIX IX
OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
  ANALYSIS AND SUMMARY OF ACTIONS NEEDED TO
                CLOSE THE REPORT
      The Executive Office (EO) for the Organized Crime Drug Enforcement Task
Forces (OCDETF) was provided a draft of the report and its comments on the
findings and recommendations were considered in preparing this Analysis and
Summary of Actions Needed to Close the Report. Since the EO concurred with all
of the recommendations, this report is being issued as resolved. We will continue
to review the actions taken in order to assess whether the findings have been
adequately addressed and recommendations implemented. Once the following
requested action has been completed, the recommendations will be closed.

Recommendation No.

1. Resolved. This recommendation can be closed when we receive a copy of
   the results of the EO’s review and its determination of the appropriate
   remedy for the approximately $6.7 million of questioned costs.

2. Closed. This recommendation is closed based on your response and the
   revised FY 2004 Reimbursement Agreement form OCDETF intends to use
   with all OCDETF agency participants.

3. Closed. This recommendation is closed based on your response and the
   revised FY 2004 Reimbursement Agreement form OCDETF intends to use
   with all OCDETF agency participants.

4. Closed. This recommendation is closed based on your response and the
   revised FY 2004 Reimbursement Agreement form OCDETF intends to use
   with all OCDETF agency participants.

5. Resolved. This recommendation can be closed when we receive a copy of
   a BICE quarterly obligation report including a comparison of costs incurred
   during the quarter, by object classification, to budgeted amounts.

6. Closed. This recommendation is closed based on your response and the
   revised FY 2004 Reimbursement Agreement form OCDETF intends to use
   with all OCDETF agency participants.

7. Resolved. This recommendation can be closed when we receive:
   • a copy of a bill submitted by the BCIE that includes the new billing
     methodology that aggregates agent work hours on OCDETF work; and
   • a sample of time sheets used by the BICE to track and to monitor the
     OCDETF-related hours of BICE agents who were formerly from the INS.

                                       - 48 -
